                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

 Case Number: A12050036                                                          Page 1 of2


         A University1 notified us it had conducted an Inquiry and was proceeding to an
         Investigation. The allegations were that a faculty member (the subject2 ) had
         plagiarized from another faculty member (the colleague3 ) when the subject
         incorporated the colleague's words and ideas into the subject's NSF proposal4. The
         investigation Committee considered each element of the plagiarism allegations
         separately: one allegation of plagiarism of words and three allegations of plagiarism
         of ideas. A complicating factor in this case is that prior to the submission of the
         subject's proposal to NSF, the subject and the colleague briefly collaborated, which
         included preparing a joint, draft proposal. The collaboration ended without the
         joint proposal being submitted to NSF.
         The questioned text in the subject's proposal was described by the Committee as
         paraphrased with only cosmetic changes to the original text. The subject began the
         questioned paragraph: "According to a survey by [the colleague]", and then listed
         several phrases and references that were in the colleague's proposal, but also in
         their joint draft proposal. The Committee concluded the subject's paraphrasing met
         the definition of plagiarism, but it did not significantly depart from accepted
         standards, so it did not rise to the level of research misconduct. Because the text
         appeared in their joint, draft proposal; it was paraphrased; and the subject cited the
         colleague by name, NSF OIG concludes it was not plagiarized. We concur with the
         University that the paraphrased text does not constitute research misconduct.
         Regarding the allegations of intellectual theft, the Committee learned the subject
         had previously published papers on one of the topics, and thus concluded the subject
         was exonerated from this allegation. The Committee concluded the subject's
         approach to the second idea was substantially different from the colleague's and
         this was a natural problem for him to consider. Similarly, for the third idea, the
         Committee concluded that, although the original idea had been the colleague's, the
         subject made significant contributions to it, and, again, his approach differed from
         the colleague's. The University concluded the evidence did not support the
         allegations of intellectual theft, and we concur.
         Thus, we concur with the University the evidence does not support the allegations


              1
              2
              3
              4




NSF OIG Form 2 (11102)
                                    NATIONAL SCIENCE FOUNDATION
                                    OFFICE OF INSPECTOR GENERAL
                                      OFFICE OF INVESTIGATIONS

                               CLOSEOUT MEMORANDUM

Case Number: A12-36                                                      Page 2 of2


    of plagiarism and no research misconduct occurred. Accordingly, this case is closed
    with no further action taken.
